<html>
<title> - GUN VIOLENCE IN AMERICA: UNDERSTANDING AND REDUCING THE COSTS OF FIREARM INJURIES AND DEATHS</title>
<body><pre>[Senate Hearing 116-100]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-100
 
                 GUN VIOLENCE IN AMERICA: UNDERSTANDING
               AND REDUCING THE COSTS OF FIREARM INJURIES
                               AND DEATHS

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2019

                               __________

          Printed for the use of the Joint Economic Committee
          
          
          
          
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          





                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
  38-197            WASHINGTON : 2020
 
          


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Mike Lee, Utah, Chairman             Carolyn B. Maloney, New York, Vice 
Tom Cotton, Arkansas                     Chair
Ben Sasse, Nebraska                  Donald S. Beyer, Jr., Virginia
Rob Portman, Ohio                    Denny Heck, Washington
Bill Cassidy, M.D., Louisiana        David Trone, Maryland
Ted Cruz, Texas                      Joyce Beatty, Ohio
Martin Heinrich, New Mexico          Lois Frankel, Florida
Amy Klobuchar, Minnesota             David Schweikert, Arizona
Gary C. Peters, Michigan             Darin LaHood, Illinois
Margaret Wood Hassan, New Hampshire  Kenny Marchant, Texas
                                     Jaime Herrera Beutler, Washington

                Scott Winship, Ph.D., Executive Director
                 Harry Gural, Democratic Staff Director
                 
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Carolyn B. Maloney, Vice Chair, a U.S. Representative from 
  New York.......................................................     1
Hon. Mike Lee, Chairman, a U.S. Senator from Utah................     3

                               Witnesses

Ms. Tina Meins, Member, Everytown Survivor Network, Washington, 
  DC.............................................................     6
Mr. Adam Skaggs, Chief Counsel and Policy Director, Giffords Law 
  Center to Prevent Gun Violence, New York, NY...................     8
Dr. John Lott, Jr., President, Crime Prevention Research Center, 
  Alexandria, VA.................................................    10
Dr. Suzanna Hupp, former Member of the Texas House of 
  Representatives, Lampasas County, TX...........................    12

                       Submissions for the Record

Prepared statement of Hon. Carolyn B. Maloney, Vice Chair, a U.S. 
  Representative from New York...................................    32
    Article titled ``Firearm Suicide in the United States''......    35
    Chart titled ``Rates of Violent Death by Firearm''...........    41
Prepared statement of Hon. Mike Lee, Chairman, a U.S. Senator 
  from Utah......................................................    33
Prepared statement of Ms. Tina Meins, Member, Everytown Survivor 
  Network, Washington, DC........................................    42
    Article titled ``Honoring San Bernardino victims means 
      tackling gun violence''....................................    45
Prepared statement of Mr. Adam Skaggs, Chief Counsel and Policy 
  Director, Giffords Law Center to Prevent Gun Violence, New 
  York, NY.......................................................    47
Prepared statement of Dr. John Lott, Jr., President, Crime 
  Prevention Research Center, Alexandria, VA.....................    50
    Charts submitted for the record..............................    64
Prepared statement of Dr. Suzanna Hupp, former Member of the 
  Texas House of Representatives, Lampasas County, TX............    78
Washington Post article titled ``Scholar Invents Fan to Answer 
  His Critics'' submitted by Senator Heinrich....................    82
Response from Mr. Skaggs to Questions for the Record Submitted by 
  Senator Klobuchar..............................................    85


                        GUN VIOLENCE IN AMERICA:



                  UNDERSTANDING AND REDUCING THE COSTS



                     OF FIREARM INJURIES AND DEATHS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                    United States Congress,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:21 p.m., in 
Room 210, Cannon House Office Building, the Honorable Carolyn 
B. Maloney, Vice Chair, presiding.
    Representatives present: Maloney, Schweikert, Beyer, 
Beatty, Frankel, and Trone.
    Senators present: Lee, Heinrich, Cassidy, and Hassan.
    Staff present: Melanie Ackerman, Robert Bellafiore, Barry 
Dexter, Sol Espinoza, Harry Gural, Amalia Halikias, Colleen 
Healy, Christina King, Wells King, Vijay Menon, Michael 
Pearson, Hope Sheils, Kyle Treasure, Jim Whitney, Scott 
Winship, and Randy Woods.

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, VICE CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Vice Chair Maloney. The meeting will be called to order, 
and I thank all of my colleagues for joining me. And thank you 
to the moms, and everybody else that is here for this important 
hearing. And certainly we thank all of our panelists.
    I especially want to thank the witnesses, some of whom have 
lost family members to gun violence. And as we talk about the 
costs of gun violence, let us never forget that the biggest, 
most tragic cost of all is the loss of a human life.
    I believe that Congress must act to stem the gun violence 
epidemic in our country. In 2017 alone, almost 40,000 people 
were killed by guns in the United States. Firearms are now the 
leading cause of death in young people. Our gun homicide rate 
for teens and young adults is nearly 50 times higher than other 
high-income countries. And 90 percent of all the women killed 
by firearms in high-income countries are killed in the United 
States.
    In August alone, more than 50 lives were taken in a series 
of horrible massacres. So far this year there have been 301 
mass shootings. That is more than one per day. And yet, 
unbelievably, some people say that the real problem here is 
that we do not have enough guns. They say that the only thing 
that will make America safer is more guns. But the fact of the 
matter is if guns made us safer, we would be the safest Nation 
on Earth, and we are far, far from it.
    In the United States there are more guns in civilian hands 
than in any other country in the world. An American is seven 
times more likely than someone in Canada to die from a gun, 
eight times more likely than someone in France, and almost 20 
times more likely than a person in Germany, and almost 40 times 
more likely than someone in the U.K., Australia, or New 
Zealand, and nearly 200 times more than someone in Japan, where 
they do not have guns, the police do not even carry guns, and 
they have had zero deaths from guns in their country. More 
people in the United States died from firearm-related injuries 
from 2003 to 2012 than the entire number of combat fatalities 
in World War II. That is an astonishing statistic.
    There is no way to estimate the cost of a human life. The 
loss is absolutely--you cannot determine what the cost is. But 
there is also economic cost: a lost breadwinner's income, 
astronomical medical costs, costs to employers, schools, 
police, hospitals, and the criminal justice system. In order to 
help people better understand those costs, I have asked my 
staff to produce a report that compiles data on the economic 
cost of gun violence in all 50 States. And the report finds 
that rural States have the highest gun violence measured as a 
share of their economies.
    States with high rates of gun ownership have the highest 
rates of gun suicide. The three largest States suffer the 
largest absolute costs, and the high youth death rates from gun 
violence extend across regions. In contrast, my home State of 
New York, which has stricter gun laws, including an assault 
weapons ban, has one of the three lowest costs of gun violence 
as a share of its economy, along with Hawaii and Massachusetts.
    There are three people in this room today who have suffered 
heart-wrenching losses as a result of gun violence. One of our 
witnesses, Tina Meins, lost her father in the mass shootings in 
San Bernardino, California, in 2015. Dr. Suzanna Hupp, who also 
is testifying, lost both her parents in a mass shooting at a 
restaurant in Texas in 1991. And Shenee Johnson from New York, 
seated in the first row, lost both a fiance and her son to gun 
violence. We must fight to lower the risks so that other 
families are not forced to bear such suffering.
    Other countries have drastically reduced gun violence 
because they found the courage to act. In Australia in 1996, 
after a man with an assault rifle killed 35 people, the 
parliament responded by banning automatic and semiautomatic 
weapons, and created a buy-back program that resulted in over 
650,000 weapons being turned in. In New Zealand in 2019, after 
51 people were killed in the Christchurch mosque, the 
parliament acted quickly, voted nearly unanimously to outlaw 
automatic and semiautomatic weapons.
    That is the kind of leadership that the U.S. Congress has 
lacked for many years. In fact, in 1996, the Congress of the 
United States made matters worse. It passed legislation that 
effectively blocked all Federal funding for gun violence 
research at the Centers for Disease Control and Prevention.
    I would say that there is no issue that cannot be discussed 
and debated and studied, and the fact that this was blocked is 
outrageous. It was changed recently, and that is important, but 
we have gone more than 20 years without deepening our knowledge 
about gun violence prevention and about what we can do to end 
this epidemic. We do so much research on cars and how to make 
them safer. We should be doing the same type of research with 
guns.
    This year the Democratic House acted to address this 
crisis. We passed the first gun safety reforms in 25 years. The 
bill requires universal background checks, closes the gun show 
loophole, and gives the FBI more time to conduct lifesaving 
background checks. This summer the House passed another bill, 
one that I have spent years fighting for, to invest millions, 
$50 million, to conduct research on how to reduce gun violence. 
And last week the House Judiciary Committee sent to the full 
House a ban on high-capacity magazines, red flag legislation, 
and a bill to prohibit those who commit misdemeanor hate crimes 
from obtaining a gun.
    These are common-sense measures that the vast majority of 
Americans strongly support. It is time for change. I look 
forward to a day when our children do not have to be afraid to 
go to school, when our teachers do not have to treat gunshot 
wounds, when nearly half of Americans are not worried about 
being a victim in a mass shooting, and when those who hold the 
reins of power move forward beyond hollow offers of thoughts 
and prayers.
    Let us honor the victims of gun violence and their families 
by working to prevent more victims. Let us, like other 
countries in the developed world, turn tragedy into bold 
action. And may all Members of Congress, especially those in 
the Senate, find the courage to act. Their inaction is 
literally costing lives. And I look forward to our witnesses' 
testimony this afternoon.
    Before I turn to our distinguished Chairman for his 
comments, I just want you to look at this chart. The red line 
is the United States and you can see how that compares to the 
gun violence in other countries, some of which is zero. But the 
next country is Canada that is similar to ours. There is a lot 
of gun violence in those countries that are having civil wars, 
but even there, their gun violence is less than what we have in 
the United States.
    Anyway, thank you all for coming, and thank you, Chairman 
Lee, for allowing this hearing. Thank you.
    [The prepared statement of Vice Chair Maloney appears in 
the Submissions for the Record on page 32.]

 OPENING STATEMENT OF HON. MIKE LEE, CHAIRMAN, A U.S. SENATOR 
                           FROM UTAH

    Chairman Lee. Thank you, Vice Chair Maloney. And I join you 
in thanking our witnesses for coming today, and thanking those, 
some of whom are witnesses and some of whom are in the 
audience, who have endured firsthand the grieving loss 
associated with gun violence.
    Over the past few weeks, Americans have watched in horror 
again and again as our fellow beings, young and old, have been 
murdered in high-profile mass shootings on American soil. As 
lawmakers, it is not enough for us to grieve with them, 
although we certainly do. It is our responsibility first to 
understand what might be causing these horrific events, as well 
as the many other tragic deaths that are the result of gun 
violence that take place in our country every year.
    And then it is our responsibility to find policies that may 
help prevent tragedies like these in the future, so long as 
these policies are faithful to the Constitution and so long as 
they do not inadvertently harm the very citizens that they are 
supposed to protect.
    Mass shootings, of course, attract our attention for a 
number of reasons, including the fact that they have the 
ability to inspire great fear. When innocent people get gunned 
down at random in public, it makes us wonder. It makes us 
think, will I be next? Will my child be next? Will my spouse, 
my mother, my father, be next?
    And our media, obsessed with their click and count 
viewership, shamelessly too often choose to fan those fears 
rather than to portray the truth about the terrible problem of 
gun violence in this country. Studies have suggested that this 
irresponsible media coverage, and I do not hesitate in calling 
it irresponsible and morally bankrupt, may actually increase 
the number of mass shootings by encouraging potential killers 
in their sick desire for attention.
    The reality of gun violence in America is less sensational 
than that what we see in the media, but no less horrible. Six 
in 10 gun deaths are suicides. In 2017, for every victim of a 
mass shooting, there were 88 victims of gun suicide, and 
another 52 victims of another form of gun homicide.
    Mental illness, spiritual emptiness, and a breakdown of the 
family and community life are at the heart of the underlying 
causes of much of our gun violence epidemic, including even 
mass shootings. Mass shooters seek to inflict on others the 
pain, the fear, the inner torment that they are already 
suffering themselves.
    They too often come from broken homes and distressed 
neighborhoods. The Joint Economic Committee's Social Capital 
Project has ranked American counties by the health of family 
and community life, and has found that half of identified mass 
shooters came from the bottom quarter of counties.
    The evil committed by these murderers must be stopped. In 
order to do that, we have to seek to uproot its causes. 
Millions of law-abiding citizens use guns to protect themselves 
and their families and their communities, just as our founding 
document protects them in their right to do that, and just as 
our Founding Fathers intended.
    The Constitution protects our right to bear arms because if 
that right were abridged, we would become more dependent for 
security on our police and on our military, necessary but 
limited and finite resources. And it is no criticism of our 
police and our military to say that this would ultimately make 
us less secure as a people--less secure, not more.
    Some Americans have suffered tragedy precisely when they 
were prevented their right to bear arms, as we will soon hear 
from the personal story of Dr. Suzanna Hupp, who is here to 
share that story with us today. Dr. Suzanna Hupp met this 
firsthand and can identify the infringement of her right as 
being connected to the tragedy that she suffered.
    And when we do enact gun control laws, we know that 
criminals are in many instances all too happy and eager and 
willing and able to ignore them. One study found that 79 
percent of guns recovered from crime scenes were possessed 
unlawfully. This does not mean that we do not have any ways to 
keep guns out of the hands of criminals in America, and 
especially the mentally ill.
    Our State governments have proposed several worthwhile 
innovations, including those that make it easier for local law 
enforcement to act swiftly on reports of suspicious activities 
that often precede mass shootings. There is room for reform in 
our Federal statutes as well. For example, we could improve 
local agencies reporting to our National Instant Criminal 
Background Check System for firearms purchases.
    Many Americans, including some of our witnesses, have borne 
in their own lives the unspeakable, unbearable costs of gun 
violence. It is important for Congress to listen to their 
voices. I hope that this committee can present to the rest of 
the country a model of respectful conversation about some very 
difficult topics so that we can work together to reduce the 
number of lives tragically and needlessly lost to gun violence.
    Madam Vice Chair, I have just been informed they have 
called some votes in the Senate. There are a couple of us who 
are in the Senate who will have to bounce back and forth. And I 
appreciate--thank you.
    [The prepared statement of Chairman Lee appears in the 
Submissions for the Record on page 33.]
    Vice Chair Maloney. Thank you. Thank you for your 
testimony. And people will be leaving to vote. And Senator 
Hassan, I want to recognize that you are here.
    But we now are going to our panelists. Tina Meins is a gun 
violence survivor and a member of the Everytown Survivor 
Network. Her father, Damian Miens, was shot and killed by one 
of his coworkers during the terrorist attack in San Bernardino, 
California, in 2015; 14 people were killed in the attack. And 
since then she has advocated for changes to our gun laws. She 
was a guest at President Obama's 2016 State of the Union 
address. She recently completed her graduate degree from the 
McCourt School of Public Policy at Georgetown University.
    Adam Skaggs is chief counsel and policy director at the 
Giffords Law Center to Prevent Gun Violence. Before joining 
Giffords in 2016, Mr. Skaggs was a senior counsel at Everytown 
for Gun Safety, where he led their litigation efforts. He 
previously served as senior counsel at the Brennan Center for 
Justice. He also has worked as a law clerk to Judge Stanley 
Marcus. He has a J.D. from Brooklyn Law School.
    Suzanna Hupp served as a Republican member of the Texas 
House of Representatives from 1997 to 2007. Dr. Hupp is a 
survivor of the Luby's Cafeteria mass shooting in Killeen, 
Texas, in 1991, where 24 people, including both of her parents, 
were killed. Dr. Hupp has spoken across the country in support 
of concealed handgun laws, and wrote a book about her 
experience entitled, ``From Luby's to the Legislature: One 
Woman's Fight Against Gun Control.'' She attended the 
University of Texas in El Paso and Texas Chiropractic College.
    John R. Lott, Jr., is president of the Crime Prevention 
Research Center, which conducts research on the relationship 
between laws regulating the ownership or use of guns, crime, 
and public safety. Dr. Lott has held a research--or teaching 
positions at various academic institutions, including the 
University of Chicago, Yale University, Wharton School at the 
University of Pennsylvania, Stanford University, UCLA, and Rice 
University. Been a lot of places. Dr. Lott has published over 
100 articles in peer-reviewed academic journals and written 
nine books, including three editions of ``More Guns, Less 
Crime.'' He holds a Ph.D. in economics from UCLA.
    We welcome each of you to the committee today. And we will 
begin with Ms. Meins. And I would just remind all witnesses to 
limit your testimony to five minutes. And we look forward to 
hearing from all of you. Thank you so very much, all of you, 
for coming. Thank you. Ms. Meins.

    STATEMENT OF MS. TINA MEINS, MEMBER, EVERYTOWN SURVIVOR 
                    NETWORK, WASHINGTON, DC

    Ms. Meins. Good morning, Chairman Lee, Vice Chair Maloney, 
and members of the Joint Economic Committee. It is an honor to 
appear before you to testify on the important topic of gun 
violence in America. My name is Tina Meins and I live in 
Washington, D.C., but I grew up in California. Today I am here 
as a daughter, a sister, a fiancee, and a recent graduate from 
McCourt School of Public Policy at Georgetown University.
    Today I represent the 58 percent of Americans who have said 
they or someone they care for has experienced gun violence in 
their lifetime. I am here in honor of my father, Damian Meins, 
who was shot and killed. He was my travel buddy and my best 
friend, and today I am my father's voice.
    My dad, mom, sister, and I were all extremely close. He was 
intelligent, hardworking, had a great sense of humor, and loved 
to make people laugh. He lived his life in service to others. 
It did not matter if he was mowing a neighbor's lawn, helping a 
friend move, or taking care of a sick relative. He was always 
generous with his time. He loved his family deeply, and our 
lives have not been the same since he was taken.
    I will never forget the shock, panic, and heartbreak when I 
learned my dad was killed, along with 13 of his coworkers, on 
December 2, 2015, in San Bernardino, California. That day my 
dad, Damian, was attending a mandatory work training event for 
the San Bernardino County Department of Public Health at the 
Inland Regional Center.
    My dad was standing by the Christmas tree during a break 
when another coworker and his wife, who had pledged allegiance 
to the terrorist group ISIS, burst through the doors and began 
shooting. In seconds, my dad was shot five times, and his life 
was over.
    There are no words to express the profound loss we 
experienced with my dad's death. As for the economic impact, 
our family had access to financial support because the shooting 
occurred during a work event and was also deemed a terrorist 
attack. We received critical resources from workers' 
compensation funds, life insurance, and the victim compensation 
fund.
    Additionally, the Nation came together, and many people 
were incredibly kind and generous enough to donate to the 
victims of the San Bernardino attacks through different 
GoFundMe efforts. With these funds, we were able to hold the 
funeral for my father and make sure his family could attend. 
However, because of the complex laws surrounding taxation of 
these varying types of monies, my mother has also faced ongoing 
IRS issues since 2016.
    She cites lost future earnings from my dad as the biggest 
financial burden, but points out that this cannot in any way 
compare to the emotional toll of losing your high school 
sweetheart and husband of 36 years in such a horrific fashion.
    I was fortunate that my own workplace at the time was very 
supportive and allowed me to stay off work for two months. 
However, I had to use all my bereavement, sick time, and 
vacation time, and after that was exhausted, I went unpaid in 
order to be with my family as we grieved.
    Unfortunately, most Americans who experience gun violence 
do not have the same access to financial support and donations 
or flexibility with their employment to pick up the pieces when 
their lives are shattered by a bullet. Although my dad did not 
survive the shooting on December 2nd, there were dozens of 
people who did, and still bear the emotional and physical 
scars.
    I have permission to share the experience of Julie, who is 
special to my family because she was able to relay the last 
seconds of my dad's life to us. She was actually standing next 
to him, next to the Christmas tree, when the shooting occurred.
    Julie was 50 years old at the time of the shooting. She was 
shot twice, and has had five surgeries that have left her with 
significant scar tissue, causing problems of its own. She has a 
tremendous amount of bullet fragmentation still left in her 
body, and will forever be concerned about lead poisoning.
    Though Julie loved her job and her coworkers, the shooting 
effectively ended her career, and she was never able to return 
to work. Across the country, survivors of gunshot wounds 
experience difficulties ranging from psychological trauma, loss 
of work, and steep medical costs.
    One study estimated that between 2003 and 2013, there was 
an annual average of 30,617 hospital admissions for firearm 
injuries in the United States. For each admission, average 
costs ranged from approximately $19,000 per handgun injury to 
over $32,000 for assault weapon injury.
    Even after the immediate hospital costs, survivors of 
gunshot wounds face a lifetime of medical care costs, including 
readmission to the hospital and nursing care. Several studies 
have shown that the lifetime costs of providing care following 
a gunshot wound are more than twice the costs of providing 
acute care. One study put the cumulative lifetime costs of 
treating gunshot wounds incurred in a single year in this 
country at $2.3 billion.
    I have been living with grief and loss for nearly four 
years since my dad was ripped from our lives, but I have not 
been standing by silently. As a member of the Everytown 
Survivor Network, I share my story to put a human face to our 
Nation's gun violence crisis. We advocate for change to help 
ensure that no other family faces the type of tragedy that we 
have experienced.
    We should all be free to live without the fear of being 
shot. No one law can stop all gun violence, but there is so 
much more we must do to keep our families safe. The House of 
Representatives has already passed bipartisan legislation to 
require background checks on all gun sales and is considering a 
strong red flag law. Now the Senate must act on background 
checks and pass a strong red flag bill.
    I am not alone supporting stronger gun safety laws. Ninety-
five percent of Americans support background checks on all gun 
sales, and 85 percent support red flag laws. And every day, 100 
Americans are shot and killed, and hundreds more are wounded. 
This is not a right or left issue; this is a life or death 
issue.
    Thank you for your time.
    [The prepared statement of Ms. Meins appears in the 
Submissions for the Record on page 42.]
    Vice Chair Maloney. Thank you so much.
    Mr. Skaggs.

    STATEMENT OF MR. ADAM SKAGGS, CHIEF COUNSEL AND POLICY 
  DIRECTOR, GIFFORDS LAW CENTER TO PREVENT GUN VIOLENCE, NEW 
                            YORK, NY

    Mr. Skaggs. Thank you, Chairman Lee, Vice Chair Maloney, 
and all the other members of the committee for the opportunity 
to testify before you today and for your attention to this 
critically important issue. My name is Adam Skaggs. I am chief 
counsel and policy director at Giffords Law Center to Prevent 
Gun Violence. That is the gun safety organization that is led 
by former Congresswoman Gabby Giffords.
    As we have already heard today, gun violence in America has 
an enormous human cost. Approximately 36,000 people in this 
country are fatally shot each year, and another 100,000 are 
shot and wounded. In 2017, gun deaths reached their highest 
level in over four decades. And while it is the mass shootings 
that often get the most media attention, day-to-day gun 
violence in this country that often does not make the news 
claims nearly 100 lives and injures almost 300 more every 
single day.
    But as we discuss today, beyond the devastating toll that 
gun violence imposes on American families and communities, it 
imposes extraordinary costs on the American economy. 
Researchers at the nonpartisan Pacific Institute for Research 
and Evaluation estimate that gun violence costs the American 
economy at least $229 billion annually. And those calculations 
were completed in 2012. The increasing levels of gun violence 
since then mean that today, the costs are surely even more.
    That includes direct costs, like emergency transport, 
medical and mental health treatment, as well as law 
enforcement, court, and prison expenses. It also includes 
indirect costs, like lost wages and the reduced quality of life 
for those who live with permanent injuries and pain. Notably, 
however, that $229 billion figure does not take into account a 
whole host of other additional costs that are harder to 
measure, costs like lost business opportunities, lowered 
property values, neighborhood flight, and the reductions in tax 
bases of communities across this Nation.
    These costs fall on each and every one of us as taxpayers. 
Eighty-seven percent of the direct costs of gun violence are 
borne by taxpayers, to the tune of roughly $700 per American 
per year. Law enforcement, many court costs, incarceration, are 
publicly funded, as is a large portion of the medical expenses 
associated with treating gunshot victims.
    A 2017 study on the costs of hospitalizations of gun 
injuries found that 40 percent of the expenses are covered by 
Medicare and Medicaid, and the average costs per admission for 
a gunshot victim to a hospital, an average cost for Medicaid 
patients, more than $30,000. That is $30,000 just for the 
initial admission to the hospital. Obviously, if gunshot 
victims require ongoing, long-term care, the costs are much, 
much higher.
    These numbers are staggering, yet they do not even capture 
the total costs of American gun violence. A 20-year lack of 
Federal investment in gun violence research has prevented 
scholars from answering more complex, more complicated 
questions about the toll that this violence extracts from our 
economy, like the differences in lifetime healthcare costs for 
different types of gunshot wounds, or the ways and manners in 
which gun violence stifles economic development and growth.
    We may not have exact answers to all of these questions, 
but we know two things for sure. First, gun violence is not 
inevitable. And second, there are policy solutions proven to 
save dollars and to save lives. For example, community violence 
intervention programs have been proven effective in reducing 
gun homicides and nonfatal shootings that are 
disproportionately concentrated in underserved communities of 
color in our cities.
    In recent years, violence reduction stages deployed in 
communities from Connecticut to Oakland, California, have been 
proven to cut rates of shootings in half. They have reduced 
shootings by 50 percent. And studies in Connecticut and in 
Massachusetts have shown that for every dollar invested in 
these kinds of programs, $7 are saved.
    Congress should fund these programs. And Congress should 
fund support to States that have adopted extreme risk laws, 
laws that allow courts, upon a showing of serious danger that a 
person poses to themself or to others, allow them to be 
temporarily disarmed.
    Congress should fund States that are moving forward. 
Seventeen States and the District of Columbia have now moved 
forward with these laws, signed into law by Republican 
governors, Democratic governors, often with broad bipartisan 
support.
    Congress should also require a background check on every 
gun sale to prevent dangerous people from acquiring guns. That 
is common sense. It has backing of 90 percent of the public. 
And the House has already passed it this year. The House has 
also allotted $50 million for research by the CDC and the NIH, 
and it is currently debating policies to disarm people 
convicted of hate crimes and to restrict the large-capacity 
magazines that make mass shootings so deadly. As I said, these 
policies would save dollars and they would save lives, and the 
Senate should follow the House's lead.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Skaggs appears in the 
Submissions for the Record on page 47.]
    Vice Chair Maloney. Thank you so much.
    Dr. Lott.

 STATEMENT OF DR. JOHN LOTT, JR., PRESIDENT, CRIME PREVENTION 
                RESEARCH CENTER, ALEXANDRIA, VA

    Dr. Lott. Thank you very much. I appreciate being invited 
here, Chairman Lee and Vice Chair Maloney, for the opportunity 
to speak.
    Guns make it easier for bad things to happen. But they also 
make it easier for people to protect themselves and prevent bad 
things from happening. Are the slides going to be up? Yes. All 
right.
    Anyway, so we hear discussions about the costs of guns, but 
what we need to do, it makes no more sense to only count people 
killed or people injured than it is to say lives that were 
saved by guns or injuries that are prevented. The question is: 
What is the net cost?
    And all the different costs that we hear in terms of 
hospitalization or lost work time or lost business 
opportunities apply just as well to people who are hurt by guns 
as well as to lives that are saved. And again, the question is: 
What is the net effect?
    And one simple question to go and ask is: We can look 
around the world in places that have banned guns. If our net 
guns are bad, you would think that murder rates would go up. 
And yet in every single place, not just Washington, D.C., and 
Chicago, which have tried gun bans, but every country, even 
island nations that have tried gun bans, murder rates have gone 
up, usually dramatically, after gun bans have been in place. 
There is not one place that one can point to where guns are 
banned where murder rates stayed the same or even fell. Next.
    One way of kind of measuring the costs and benefits of 
having guns is to look at the rate that guns are used in 
commissions of crime versus the rate that guns are used to go 
and stop crimes. And what you find is that surveys indicate 
that people use guns about four to five times more frequently 
to stop crimes than they are used to go and commit them.
    We heard the comment earlier about how many guns we have in 
the United States, and if we only had so many guns, we should 
be the safest country in the world. There is a distinction here 
between having guns and being able to have guns with you.
    So, for example, 94 percent of the mass public shootings 
that we have had in the United States have taken place in those 
areas where we have people banned from being able to go and 
have guns for protection, so-called gun-free zones, where law-
abiding citizens are not able to go and protect themselves.
    These killers, these mass public shooters who want to go 
and get attention, like Senator Lee was pointing to earlier, 
want to go to places where they can kill as many people as 
possible. You cannot do anything but read the diaries or other 
statements that these killers have left and not come away with 
the fact that they purposely picked those places where people 
cannot defend themselves precisely because they want to kill 
more people than you would be able to go and kill otherwise.
    If you think gun control, extremely strict gun control, 
would lower crime, one need only look at Mexico. Since 1972, 
Mexico has had only one gun store in the country. It is run by 
the military. Extremely extensive background checks and 
psychological screening. Only about 1 percent of Mexicans 
legally own a gun. And yet it looks like, this year, Mexico 
will again have a murder rate that is going to be about six 
times higher than what we have here in the United States.
    One thing that is included in a lot of the numbers that 
have been discussed so far is suicides. In fact, if you take 
out justifiable homicides, about two-thirds of the deaths, or 
70 percent of the deaths, involve suicides in any given year. 
The assumption seems to be if we take away guns, you are going 
to eliminate suicides. In fact, the vast majority of academic 
research by economists and criminologists shows that, in fact, 
there are very close substitute ways, and you do not see 
changes in the total numbers of suicides. Next slide.
    So just as an example, in terms of the success rate for 
committing suicides, I have data here from a number of 
different types of things--shotguns to the head, cyanide, 
gunshot to the head, explosive, being hit by a train or a 
truck, jumping from a height, hangings--all of them have 
relatively similar success rates in terms of committing 
suicides. Next.
    Now, I could tell you, I think, a pretty quick, few, very 
reasonable changes that could be made in the universal 
background checks bills that would get them passed very 
quickly. One is dealing with the false positives. We frequently 
hear that there are three and a half million dangerous, 
prohibited people who have been stopped from owning guns 
because of background checks. That is simply false. Virtually 
all of those are mistakes, and it is very simple to correct 
that.
    All you have to do is have the Federal Government, when it 
does criminal background checks or other background checks on 
gun buyers, meet the exact same rules that the Federal 
Government requires that private companies do. If private 
companies had an error rate that the Federal Government has, 
they would be sued out of existence. And it overwhelmingly hits 
minorities. The costs are also extremely great, too. You could 
fix these things just by having the government pay for this out 
of general revenue. Last--skip two slides. One more.
    Here is a survey that has recently been completed of 
academics--economists, criminologists, and public health 
researchers. And you can basically see, with the exception of 
economists, with regard to gun-free zones and eliminating them, 
all the other groups are pretty relatively skeptical of 
different types of gun control.
    This is the largest survey that has been done of academics. 
Even the public health people, which are relatively more 
favorable towards gun control, there is no category where they 
are really much different than the midpoint in terms of, then, 
for other things, and particularly for criminologists and 
economists. They are much more skeptical.
    I greatly appreciate your time, and I look forward to the 
questions.
    [The prepared statement of Dr. Lott appears in the 
Submissions for the Record on page 50.]
    Vice Chair Maloney. Thank you so much.
    Dr. Hupp.

STATEMENT OF DR. SUZANNA HUPP, FORMER MEMBER OF THE TEXAS HOUSE 
            OF REPRESENTATIVES, LAMPASAS COUNTY, TX

    Dr. Hupp. Good afternoon. My name is Suzanna Hupp, and I am 
representing myself. I believe you have been supplied with my 
written testimony, which goes into a lot more detail than I can 
in five minutes.
    You titled this hearing, ``Gun Violence in America: 
Understanding and Reducing the Cost of Firearm Injuries and 
Deaths.'' I am here to just make sure that you also consider 
the high cost of gun control in your discussions.
    In 1991, my parents and I were at a Luby's Cafeteria in 
Killeen, Texas. We had just finished eating when a madman 
crashed his truck through the floor-to-ceiling window and then 
methodically began executing people. I reached for the gun in 
my purse on the floor next to me, but then realized that a few 
months earlier I had made the stupidest decision of my life. My 
gun was 100 yards away, dutifully left in my car to obey the 
law because at that time in the State of Texas, carrying a 
handgun was illegal. We did not have any type of concealed 
carry.
    I cannot begin to get across to you how frustrating it was 
sitting there waiting for it to be your turn like a fish in a 
barrel with no meaningful way of fighting back. When my father 
saw what he thought was a chance, he ran at the guy, but the 
guy just shot him after he covered about half the distance. As 
I escaped, my mother stayed behind with her husband of 47 
years, cradling him until the gunman got back around to her.
    To shorten the story up for this, 23 people were killed 
that day, including my parents. It was the largest mass 
shooting in our country at that time. I want you to understand 
that the only thing gun control did that day was to prevent me 
from being able to protect myself and my family.
    By the way, law enforcement was one building away in a 
conference, and in an odd twist of gun control fate, the 
manager of the conference hotel had asked them to store their 
weapons in their vehicles so as not to offend the other hotel 
patrons. They told me later--several of them were patients of 
mine--that it took precious minutes for them to retrieve their 
guns from the trunks of their cars before they could run to the 
scene.
    Then all they had to do was fire a shot into the ceiling. 
This guy rabbited to the back bathroom alcove area because they 
are, by nature, chickens; they exchanged some gunfire with him, 
and he put a bullet in his own brain.
    I have got to tell you, can you imagine being in that 
position today, but instead of having your parents with you, 
what if you have your children or your grandchildren with you? 
Even if you have chosen not to have a gun, do you not hope the 
guy behind you has one and knows how to use it?
    I can tell you that the cost of gun control on October 16, 
1991, was my parents and 21 other innocent lives, several of 
whom, like the cops, had dutifully left their guns in their 
cars.
    So we have seen so many of these mass shootings since 
then--restaurants, post offices, schools, day cares, dance 
clubs, theaters--but nearly every one of them had a sign 
depicting a red circle with a line through a gun. So explain 
this to me. If guns are the problem, why have we not seen any 
of these mass shootings at NRA conventions, or skeet and trap 
competitions, or the dreaded gun show, places where there are 
thousands of guns in the hands of law-abiding citizens?
    So I understand--having been a politician, I understand the 
need to do something. So if you want to make a difference, I 
think you should start by speaking truthfully and accurately, 
without any misleading rhetoric. I have found that the average 
reporter and, quite frankly, a lot of your own staffers have no 
idea what a semiautomatic is. They think it is essentially a 
rapid fire machine gun-type weapon. Those are automatics, and 
they have been illegal in this country without a special 
license since the 1930s. So I carry a semiautomatic. Every 
woman I know that carries, carries a semiautomatic. So yes, you 
are talking about our guns.
    I think Representative O'Rourke finally said out loud what 
many have obfuscated for years. He essentially said he does 
want to take away the guns that are designed to kill. And let 
me assure you that if someone threatens me or mine, that is 
exactly what I want it to do.
    Universal background checks are not the answer. Existing 
background checks have failed miserably, and I am a firm 
believer that this just becomes a de facto registration. And 
honestly, if you look at history, registration always, always, 
always leads to confiscation.
    So if you want some common-sense legislation, rid us of 
public gun-free zones. Spree killers want to go where they can 
rack up a high body bag count. That again is the cost of gun 
control.
    The next positive change could be fleshed out through a 
task force implemented at the State level. I will tell you, my 
husband is a criminal psychologist who provided a description 
of how we could prevent many if not all of these shooting 
sprees, and that is in my written testimony.
    In the end, again, the title given to the hearing, in part, 
is, ``Reducing the Cost of Firearm Injuries and Deaths,'' and 
while attempting to reduce violence as a whole is a worthy 
cause, I find it pointless to focus on the tool. A gun can be 
used to kill a family. A gun can be used to protect a family. 
It is just a tool. And by the way, an estimated 350 million 
guns in America did not hurt anybody this year, and that is a 
staggering statistic.
    Thank you.
    [The prepared statement of Dr. Hupp appears in the 
Submissions for the Record on page 78.]
    Vice Chair Maloney. I want to thank all the panelists.
    I have a question for you about the prevalence of gun 
violence in the United States. I would like to get your 
perspective on it. But first I would like to show a brief video 
from Steve Kerr, coach of the Golden State Warriors. His father 
was shot and killed when serving as president of American 
University of Beirut.
    [Video played.]
    Mr. Skaggs, is what he says true? Is the United States in a 
``league of its own?''
    Mr. Skaggs. I think, unfortunately, what Coach Kerr just 
shared with us is absolutely right. As I said at the outset, 
Americans are 25 times more likely to be killed in a gun 
homicide than are residents of other high-income countries. 
With 100 people being shot and killed every day, with 300 more 
Americans suffering gunshot wounds, I find it hard to argue 
that this is not a crisis.
    Vice Chair Maloney. Ms. Meins, I appreciate very, very much 
your testimony and your courage today. And you have given us an 
insight into the high personal and economic costs associated 
with gun violence. But the cost your family has suffered did 
not end on that day that your father was killed. How has the 
San Bernardino attack affected the way you think about your own 
plans and your own future?
    Ms. Meins. Everything changed for my family after that day. 
I had a nice career in procurement and purchasing services, and 
after that I decided that I needed to be more dedicated to 
trying to stop this so that other families do not have to face 
these kinds of tragedies. I am very sorry for anyone that has 
suffered from any kind of loss due to gun violence.
    But I decided that it was important for me to try to speak 
on behalf of my family and put a face to the tragedy so that 
other survivors could have a voice so that people truly 
understood what the toll of violence is. So everything changed. 
Our psychological and emotional well-being changed. Our life 
plans changed. Our finances were affected. Everything changed.
    Vice Chair Maloney. Mr. Skaggs, it has been reported that a 
man who carried out the massacre in Odessa and Midland had 
failed a background check because of a previous offense, yet 
because of loopholes in current background checks laws, he was 
able to buy an AR-style gun in a private transaction from an 
unlicensed seller who was not required to run a background 
check.
    Would H.R. 8, the background check legislation passed by 
the House earlier this year, have applied to this gun purchase? 
Would it have made a difference?
    Mr. Skaggs. Absolutely. Absolutely. That is exactly the 
type of scenario that H.R. 8 is designed to prevent. We have 
heard that since its inception, the National Criminal 
Background Check System has stopped 3.5 million prohibited 
persons from obtaining guns through sales by licensed dealers.
    But in the vast majority of the country, someone who fails 
a background check, is denied a gun purchase, can just simply 
turn around, go online to one of many websites that advertise 
millions of guns for sale without any background checks 
whatsoever and meet someone in the parking lot of a McDonald's 
or outside another store and buy that gun for cash with no 
questions asked, no background check whatsoever.
    That just defies common sense, that somebody who fails a 
background check because of a criminal record, because they 
have been convicted of domestic abuse or otherwise subject to a 
domestic abuse restraining order, these people should not be 
allowed to turn around after failing background checks and 
simply buy guns without any security whatsoever.
    So that is exactly what H.R. 8 would address, and that is 
why it is so critically important that after the House's 
leadership on this issue, that the Senate follow suit.
    Dr. Lott. Could I make a correction?
    Vice Chair Maloney. Thank you.
    Dr. Lott. Because the person that sold the gun to the 
Odessa killer actually was committing a crime because he was 
selling a ghost gun, something that he had made himself, and 
was punishable by five years in Federal prison. He did not have 
a manufacturer's license to go and do that. So it is not clear, 
if he was already committing that crime, which was a five-year 
felony under Federal law, why the additional law would have 
made any difference in that case.
    Vice Chair Maloney. Well, I tell you, we have had hearings 
in the Government Reform and Oversight Committee, on which I 
serve, where the law enforcement, Border Patrol along the U.S.-
Mexico border, testified that the gun laws are so lax on 
selling illegal guns that they do not even bother to arrest 
people because it is not even a Federal felony now to sell 
illegal guns.
    And they have asked us to correct that, and we have bills 
in to correct that, to make selling illegal guns a felony. And 
the others have complained, from law enforcement, about these 
straw purchasers who buy guns and give them to other people, 
that the penalties are not preventing them from acting.
    Dr. Lott. But it is not----
    Vice Chair Maloney. But right now, my time is up, and I am 
recognizing my colleague, Representative Schweikert.
    Representative Schweikert. Thank you, Vice Chair Maloney, 
though I think what you just described was a felony.
    This is actually a subject I have had intense interest in. 
And I am going to say one of those things I think will 
instantly offend everyone: I fear we often have absolutely the 
wrong discussion. And let me walk through some of the 
mechanics.
    We have data sets that show, if I take the last 30 years, 
which is probably the appropriate sample size, why have some 
communities in our country gotten dramatically safer, and why 
have others not? We see some interesting data coming out of my 
home, Phoenix, Arizona, where statistically, divided by the 
100,000, substantially safer than 30 years ago.
    What did a community like that do? Was it mental health 
services? Was it community policing? Was it just age 
demographics? And what--concealed carry. There is lots of 
inputs, and I believe we treat each other almost intellectually 
dishonestly when we say it is going to be this shiny object or 
that shiny object. Complex problems require complex 
understanding.
    What do some communities do that are working, and what are 
other communities do that do not work? And then could we all 
just agree we are going to do less of this and more of this? 
The most precious thing in my world is I have a four-year-old 
little girl. And damn it, I worry about this because something 
we as elected officials do not talk enough about is we are the 
inbound to a lot of hate, and we think about this a lot.
    And I am going to break some protocols, and I am going to 
ask us to be very brief. Mr. Skaggs, I should also disclose I 
have known Gabby Giffords for a very long time, and I have 
considered her one of the people I was close to in Arizona. And 
we have--some of the staff around you, we have had this very 
conversation.
    I was fascinated. You pointed out that there are some 
violence intervention programs. Could you specifically just 
talk about, quickly, what is working on those?
    Mr. Skaggs. Sure, absolutely. And I appreciate your 
remarks. I think you are absolutely right. There is no one 
simple solution to this incredibly complex and serious problem. 
But let's just take a look at those community violence 
interruption programs.
    There are multiple different models. There are some that 
are based in hospitals that use the moment of intervention when 
somebody is wounded, either in a gunshot or a stabbing, to 
intervene and break the cycle of violence. There are others 
that engage stakeholders across the community.
    But these require adequate funding. They require adequate 
resourcing, and there has not been the kind of Federal support 
for these successful, proven models. And in cities where these 
have had a temporary effect but then have not had sustained 
success, it is because there has not been sustained resourcing.
    Representative Schweikert. But even a temporary effect is 
statistically significant.
    Dr. Lott, I have read bunches of your material. I 
appreciate the data. Back to my scenario: Why have some 
communities gotten dramatically safer in the last three decades 
and others have not? What has worked? What has not?
    Dr. Lott. Well, I think if you look at the research by 
economists, you will find about 50 percent of the variation of 
crime rates can be explained by law enforcement generally. 
Places that you have more effective policing, being able to 
increase the arrest rate per crime that is committed, is 
extremely important.
    Other things--just making it costly and riskier for 
criminals to go and commit crime has a very important impact on 
that. Longer prison sentences also played an important role. I 
do not think policing solves everything and I do not think guns 
do, either. I mean, concealed carry may only explain about 5 
percent or so of the variation that you see over time. I think 
it produces a beneficial effect, but I think it has to be part 
of overall policies.
    Representative Schweikert. Dr. Hupp, now--and Dr. Lott, you 
can correct me--now, I have seen some things where there has 
been an attempt to normalize the data. This State chose a 
mental health program. This State chose community policing. 
This State chose a type of concealed carry or constitutional 
carrier.
    Has anyone done some academic research where I can see 
pluses and minuses? Because we have a data set that says States 
have chosen concealed carrier have actually gotten 
substantially safer.
    Dr. Hupp. The statistical evidence may be a better question 
to Dr. Lott. But I can tell you that the problem that I have 
seen, and I have testified in a lot of different States, is 
that we have a lot of mental health programs, and certainly I 
do in my own State, where if someone, let's say in school, is 
deemed a mental health question mark there--there is a question 
mark--they send someone in to do an assessment. But that's a 
mental health assessment.
    And I do not want to go too far off the deep end here 
because I am not a mental health expert. But I can tell you 
that what we are recommending is a threat assessment, which is 
an entirely different thing, and we already have laws in place. 
We just--it is not cohesive, and it is not cohesive across the 
board to where people know what to do with them.
    Representative Schweikert. But that may be--and Vice Chair 
Maloney, thank you for your tolerance on the tyranny of the 
clock--I desperately wish we could have, actually, a more 
robust, intellectually honest--I know often we are blinded by 
our partisan shiny objects.
    But we can see in our communities, there are those who have 
gotten safer. Let's do more of that.
    Vice Chair Maloney. Let's do more research there. And our 
Chairman of the committee, Mr. Lee, is recognized for five 
minutes.
    Chairman Lee. Thank you, Vice Chair Maloney.
    Dr. Hupp, in your testimony you mentioned a surprisingly 
common misunderstanding about guns, the difference between 
semiautomatic guns and those that are not. Are there any other 
common misconceptions that you find as you visit with 
Americans?
    Dr. Hupp. Yes. I think something that always jumps out to 
me that has frankly been a frustration for me for a very long 
time is that in many of the States that allow carry--and I do 
not care if it is concealed carry or open carry, just that 
allow carry--why is it that you all will trust the teacher 
across the street at a grocery store walking around with 
families and strollers, and then the moment she comes across 
the street into her place of work, the school, where we know 
the schools are targets, why are we saying, suddenly, we do not 
trust her? We do not trust her to protect herself or her 
students.
    I am not saying arm the teachers. I have never said that. 
But those that already have jumped through the hoops to be able 
to arm themselves should be trusted in those places that we 
know are targets. That is a big one for me.
    And again, the ridding ourselves of gun-free zones--again, 
those are targets. And let me clarify that I do not think my 
gun is a guarantee. It is not a guarantee. It just changes the 
odds in many circumstances. I do not think we should be 
focusing on the tool; I have had people say, ``Well, your gun 
would not have made a difference in the Las Vegas situation.''
    But I think that just lacks a little imagination. The guy 
had two planes a mile away. All he had to do was fly one of 
them into the crowd; he would have killed hundreds if not 
thousands that way.
    Chairman Lee. Thank you.
    Dr. Lott, some of your fellow witnesses have referred to 
poll numbers regarding universal background checks. Are you 
familiar with those polls?
    Dr. Lott. Yes.
    Chairman Lee. And what is your opinion on them?
    Dr. Lott. Well, people have mentioned polls showing 90 
percent, 95 percent, 97 percent support. These are usually one-
sentence questions that really do little more than ask people 
whether they want to try to stop criminals from going and 
obtaining guns.
    If you actually looked at ballot initiatives that have been 
put on the ballot, most recently in 2016 in Maine and Nevada. 
Michael Bloomberg would outspend his political opponents by 
ratios of 6 to 1 or 3 to 1, but still lost. There is a reason 
why he is not putting ballot initiatives on for these 
background checks.
    If it really was 90 percent of 80 percent or 70 percent 
support for these things, it would not be necessary for him to 
outspend the other side just to be able to try to get near 50 
percent in terms of the results there. And I think if they 
really thought that there was this huge support, he would be 
putting more initiatives on the ballot, and we are not seeing 
that.
    Chairman Lee. We have heard a lot of talk today about 
different kinds of research that have been conducted. Is there 
a type of research you would like to see more of when it comes 
to firearms?
    Dr. Lott. Well, there is a huge amount of research that is 
done anyway. The Federal Government, from 2015 through 2018, 
spent $43 and a half million. You have people like Michael 
Bloomberg, who is literally spending hundreds of millions of 
dollars on this; George Soros; the Joyce Foundation. Others are 
spending tremendous amounts of money. Rand is spending $20 
million, apparently; hopefully it gets up to $50 million on 
this.
    The interesting thing to me is that this vast amount of 
refresh is almost all--the funding is being concentrated on 
public health. There are huge differences, as I showed in the 
survey that we had. Economists and criminologists, who have not 
been getting this type of government funding are much, much 
more skeptical of any of these different types of gun control 
laws that work.
    The funding for the CDC and the--90 percent of the $43 and 
a half million that the Federal Government spent went to public 
health research.
    Chairman Lee. In the time we have remaining, I was reading 
your written testimony. You have some charts and some analysis 
that discusses the relationship between gun-related homicides 
and gun ownership rates in different countries. Can you walk us 
through those really quickly?
    Dr. Lott. Sure. Well, I mean, we have homicide data for 
different countries as well as firearm homicide. I will just 
mention one thing since we have had a little bit of discussion.
    Only about half the countries in the world even report 
firearm homicide data. We are kind of spoiled with all the data 
that we have here. One of the reasons why the United States 
looks relatively high in terms of firearm homicides is that the 
countries with the highest homicide rates do not report 
homicides.
    But if you look at either homicides or firearm homicides, 
the countries with the highest gun ownership tend to have the 
lowest homicide rates. And that is also true for mass public 
shootings. The United States ranks about 65th out of 90 
countries that we have data for on mass public shootings, and 
it is just that we do not recognize that because attacks in the 
rest of the world, except for maybe New Zealand or a couple 
other ones, usually do not get that much attention. But the 
countries that tend to have the most gun ownership tend to have 
the fewest mass public shootings.
    Chairman Lee. I see my time is expired. Thank you. Thank 
you, Madam Chair.
    Vice Chair Maloney. Okay.
    Mr. Beyer.
    Representative Beyer. Thank you. Thank you all for being 
here today to discuss America's gun violence epidemic.
    I want to recognize that September is Suicide Prevention 
Awareness Month. Suicide is a leading cause of death across all 
age groups and suicide deaths have increased 33 percent since 
1999. In 2017 we lost 47,000 people to suicide in the United 
States, and about half of those deaths are gun deaths. In 
Virginia it is 57 percent of suicides are by guns. I believe in 
every single State that has universal background checks, the 
suicide rates are lower than those that do not.
    And data shows there are several useful mechanisms to deter 
people from hurting themselves in moments of crisis, including 
restricting access to lethal means, which is what the Extreme 
Risk Protection Order Act and red flag bills do. We have three 
suicide prevention bills moving their way through the House 
right now, and I am really looking forward to them.
    By the way, I want to correct just a few things. I was 
ambassador to Switzerland for four years. They have had 
registration for decades and decades, and no one has 
confiscated their weapons. I believe we can do many other 
things.
    My dad used to--one of his favorite aphorisms was, ``Lies, 
damn lies, and statistics.'' I was looking at those charts and 
they were just making me more and more uncomfortable. To my 
friend Mr. Schweikert's shiny objects, more guns, less crimes. 
Let's make it really simple. We have 350 million-plus guns. 
Firearms-related death rates per 100,000. Fifty-nine states 
that I wrote down. And I am going to use some of my time just 
to make the point.
    These are the states that have--the countries that have a 
lower firearm death rate per 100,000 people than we do: 
Argentina, Australia, Austria, Azerbaijan, Barbados, Belgium, 
Bulgaria, Canada, Chile, Costa Rica, Croatia, Cuba, Cyprus, 
Denmark, Estonia, Finland, France, Georgia, Germany, Greece, 
Hong Kong, Hungary, Iceland, India, Ireland, Israel, Italy, 
Japan, Kuwait, Latvia, Kyrgyzstan, Luxembourg, Moldova, 
Montenegro, Netherlands, New Zealand, Nicaragua, North 
Macedonia, Norway, Paraguay, Peru, Poland, Portugal, Romania, 
Serbia, Singapore, Slovakia, Slovenia, South Africa, South 
Korea, Spain, Sweden, Switzerland, Taiwan, Turkey, Ukraine, 
U.K., Uruguay, and Zimbabwe. At least 59 countries have a lower 
homicide and suicide rate by firearms than does the United 
States with its 350 million weapons.
    Ms. Meins, thank you for bravely sharing your experience 
with the death of your father. Too many times after the loss of 
life during a mass shooting, we see death by suicide of 
victims' family members. We saw it a number of times after 
Florida. Can you talk for a minute about this connection and 
how research might help policy-makers address it?
    Ms. Meins. I think I would like to share--I mean, I would 
like to save the harder policy questions for perhaps possibly 
Adam. But I will say that we know of at least one person 
involved in the San Bernardino shootings that was a family 
member that did commit suicide. And I know that there is 
ongoing trauma that the survivors, their family members, their 
friends, their communities face as a result of shootings.
    And so I think that further policy research into those--
into what could help with that is really important. But I think 
that a red flag law, those extreme risk protection orders that 
you spoke of, would be highly beneficial in making sure that 
people that are at risk for hurting themselves and others could 
get some sort of intervention.
    Representative Beyer. Yes. There is a growing body of 
evidence to the people who go to a gun shop to buy a weapon to 
kill themselves, and are turned away, end up not killing 
themselves at all. They do not go then to look for a bridge or 
some pills.
    Mr. Skaggs, we lose a person by suicide by gun in Virginia 
every 14 hours. We have a bunch of different policy 
considerations. But do you think making guns more readily 
available would help the suicide epidemic in the United States?
    Mr. Skaggs. I do not. I think you are right. There are a 
number of tools--excuse me. I do not think that making more 
guns available will reduce suicide in Virginia. I think there 
are, however, a variety of policy tools that legislators in 
Virginia could enact that would be likely to reduce the rate of 
suicide in Virginia.
    We have already heard about extreme risk laws. Those are 
the law in 17 States now. Two of the States to have adopted 
them on the earlier side, Connecticut and Indiana, leading 
researchers at Duke University have shown that those had a 
demonstrable reduction in suicide in those States.
    And I think as the other States gain more experience 
implementing these extreme risk laws, we will see suicide rates 
come down there. Waiting period laws that allow for somebody 
who is in a period of immediate crisis to take a breath and 
have a cooling-off period, those also can reduce suicide.
    And finally, I want to flag a policy that has just been 
pursued in Washington State, which allows somebody who is going 
through a personal crisis to put themself on a ``Do not buy'' 
list, so to put themself on a list that prevents them from 
purchasing a gun. And of course they can go through steps to 
restore the right to buy a gun.
    But this is not something that anybody else is preventing 
them from buying a gun. It is a tool that empowers individuals 
dealing with suicidal ideation to stop themselves from taking a 
risk that is very heavily associated with suicide.
    I do not list all those policies to suggest that any one of 
them would be a panacea and would solve all suicides, or that 
there is any law that would solve all gun deaths at all. But I 
list them because the experimentation that is possible is 
something that we should all be pursuing. We should all be 
trying to find new solutions to these ongoing and persistent 
problems.
    Representative Beyer. Could I make a quick follow-on 
comment, please?
    Vice Chair Maloney. The gentleman's time is expired.
    Representative Beatty.
    Representative Beatty. First of all let me just say to you, 
Madam Chair, and to our Chairman on the Senate side, thank you 
for conducting this hearing. It is quite difficult to sit here 
today and listen to the stories. It does not matter what our 
opinions are in how we get to some resolve. I think we are all 
saying, we need some resolve.
    How it affects not only the economy, which seems 
appropriate in this hearing, but when you hear all of the 
countries, Congressman Beyer, that you read off, when I look 
out here and I see the ``Moms Demand Action,'' let me just say 
thank you. There are not enough words I can say to you for what 
you have gone through and what you represent.
    Today for me is listening. There are no words for how we 
are anchored at this table, Doctor, for you and what you had to 
go through, or Ms. Meins, what you had to go through. I do not 
have words, and I cannot imagine my children and grandchildren 
or parents. But thank you for your testimony. I think today it 
helps us move the needle. Mr. Skaggs, thank you.
    I support much of what you have brought in information and 
data. I was born in Dayton, Ohio. I witnessed sitting in that 
funeral of one of the nine victims. I was there and went to the 
funeral of the nine individuals who were shot in that church 
with Congressman Clyburn in Charleston. So for me, from afar it 
is a heavy heart.
    I have read part of the excerpts from your book. I know 
like me you served the State House in Texas, and I served in 
the Ohio State House. So I say today for us, when we look at 
all the lost wages and what that is like, not only to be 
suffering from the economics, which some can survive it and 
many cannot, that for me, the end of it is we have to do 
something.
    And we have to listen to see, how do we bridge what 
Republicans and what Democrats together are saying? Because 
this should not be a partisan issue. This is about real people 
and real lives and the economy. And I don't know how we get 
Madam Chair to the economy part without struggling through how 
we save lives. I am not for anybody taking away a person's 
Second Amendment right. My father carried a gun. So I 
understand that.
    But what I do know is that we have to have some different 
laws. And it will not, Mr. Lott, probably save everyone from 
every shooting. But I do not know how we cannot do something 
for those who are irresponsible. And in many of those cases 
that we have witnessed, there has been some alarming fact that 
some light bulb should have gone off.
    And that does not mean to take away your gun and not let 
you have your bullets. Maybe on that day I am wishing you had 
it. But here is what I do know. I know we have to have some 
action before we get to the economics of the lost wages and the 
economy that speaks to having some common-sense laws.
    Everybody should not, nor do they have the education that 
you have, to carry a gun. We should not be able to have 
loopholes. If it is that important for me or you or anyone to 
have a gun, then you should wait through the period for 
somebody to do that background check. If you cannot get on an 
airplane and fly with me every week because you are on a list, 
you ought not be able to go and just buy a gun. I am really 
talking about some common-sense things.
    We have many people. Do we need to put more money into 
mental health? Yes. But all of this is not the answer. So I am 
here today to listen. But I want real facts. I do not want 
fraudulent data. I do not want people out there pontificating 
and saying things because they get paid to do it or that they 
are just wanting to have their facts out there.
    I want to hear from the people like you, and I want to hear 
from the people like you. And I have to be big enough to bridge 
the gap of both sides of the aisle and what helps us. So I am 
going to be around in and out. I am on another committee. But I 
want to make sure that we listen and we hear from you.
    Thank you, and I yield back.
    Vice Chair Maloney. The lady's time is expired.
    Representative Frankel.
    Representative Frankel. Thank you, Madam Chair. First of 
all, I thank the panelists for being here, all of you. And Ms. 
Meins and Dr. Hupp also, please accept my deepest feelings of 
sympathy for your loss. I know you interpret what might have 
been the cause, but I know it was deeply sad for all of you.
    And I also want to thank Moms Demand Action. And I will 
start with a story. A couple weeks ago I went to the home of a 
woman who leads the Moms Demand Action in Del Ray Beach, 
Florida. And I sat with a group of young moms, and had their 
kids running around. And it had just been the first day of 
school.
    And one of the moms said to me that her five-year-old came 
home from school and the mother said, ``Well, how was school 
today?'' And the little girl said, ``Oh, it was very bad.'' And 
she said, ``Why?'' She said, ``They are making me sit at the 
seat closest to the door.'' These kids are so stressed out with 
the Code Reds and all.
    And I had a conversation with these young people who work 
for me, the internships this last summer. And they were all 
teenagers. And I asked them, I said to them, ``What is your 
biggest worry in life today?'' And I was sure they were going 
to say climate change.
    You know what they told me? They are afraid of being shot 
at school. And I was talking to a very devout Jew the other 
day, and he told me he is afraid to go to temple this year. And 
my friends are telling me they do not even want to go to the 
movies. Come on. Let's face it. Getting shot is on everyone's 
mind right now.
    And I know we have to do a lot of--I just want to say one 
thing. People said, ``Well, this won't work and that won't 
work.'' I am just going to use an analogy. We talk about 
healthcare, those of us who have children. You get your child a 
measles shot. It may not prevent the chicken pox of 
tuberculosis, but the fact of the matter is, you do not say, 
``I am not getting the measles shot because it is not 
preventing every other disease.'' There are just certain steps 
that we have to take to try to reduce this gun violence.
    Mr. Skaggs, you testified before Dr. Lott and Dr. Hupp 
testified. I would like to ask you to respond to some of their 
assertions, including that banning guns caused more violence, 
having less semiautomatic weapons caused more homicides, that 
gun regulations lead to more carnage. There were all kinds of 
assertions. And I would just be interested in your----
    Dr. Lott. Could I just say what I said? What I said was, 
you cannot name one----
    Vice Chair Maloney. Excuse me, sir.
    Representative Frankel. Well, I----
    Vice Chair Maloney. This would be the time----
    Representative Frankel. Yes. And let me just have Mr. 
Skaggs----
    Mr. Skaggs. I am happy to answer your question.
    Representative Frankel. I think Mr. Skaggs knows what I am 
getting at with that. I do not want to be--I am not trying to 
misstate. But he heard what you said.
    Mr. Skaggs. Yes. I do not think it is going to be good for 
anybody here to tit for tat on everything that everyone has 
said. But there are two points that I really think critically 
need to be responded to that have been made by some of the 
other witnesses.
    The first is that the 3.5 million people prevented from 
buying guns by failing background checks, that those were all 
false positives and that indeed it is a 100 percent failure 
rate. That is just simply false. That is just simply not true. 
The FBI's audits have found that about 99 percent of those are 
proper, and the Office of Inspector General also confirmed that 
99 percent of those denials were accurate. So I just need to 
correct the record on that point.
    Dr. Lott. That is not what we said.
    Mr. Skaggs. The other point--please do not interrupt me; 
excuse me--the other point I would like to respond to is the 
notion that States that have flooded more guns into more public 
places with more concealed carry have seen dramatic drops in 
assaults or in crimes or in homicides.
    In fact, the most credible research, what they call the 
gold standard of current research methodology--it is called 
synthetic control method--has found that States that relaxed 
their concealed carry laws and moved to a permissive concealed 
carry regime saw violent crime increase by 13 to 15 percent. 
When looking specifically at gun homicide, the sciences at 
those States that relaxed their standards for concealed carry 
have seen firearm homicide rates go up by 10 percent.
    So I agree entirely. If we want to have an informed 
discussion here, we need to talk about reliable data, reliable 
facts. And I would suggest that the best way to get that data 
is to fund the Federal Government, the CDC and the NIH, to 
conduct the kind of research that we need so we can have 
uniform data that we can all look to and we can all come up 
with solutions based on that data.
    Representative Frankel. Thank you. Thank you.
    Vice Chair Maloney. The gentlelady's time----
    Dr. Lott. Could I respond to his comments, please?
    Vice Chair Maloney. The gentlelady's time has expired.
    Dr. Lott. Can I respond to----
    Vice Chair Maloney. We have rules about how the committee 
is conducted. Each member has five minutes. We are following 
that.
    Dr. Lott. But he directly attacked my work, and it just 
seems like I should be able to respond briefly to it.
    Vice Chair Maloney. You can put it in writing at the end of 
the hearing. I will allow you to respond to it. But we are 
following regular order. Each member has five minutes, and they 
are entitled to their five minutes.
    Senator Heinrich.
    Senator Heinrich. I am going to try to get to questions as 
quick as I can. But I do want to make a point, and that is that 
as somebody who owns a lot of firearms and has two kids in 
school, it has been really instructive to just talk with them 
because they do not carry all this baggage the rest of us 
carry. Some of their absolute best memories in life have 
involved the responsible use of a firearm. And yet they go 
through these active shooter trainings, and it is incredibly 
hard on them. So I think we could all benefit from some of that 
common sense that they can bring to these discussions.
    Mr. Skaggs, I was hoping you would touch on how the 
economic impacts from gun violence are just not evenly 
distributed across demographic groups. Can you drill down on 
that a little bit?
    Mr. Skaggs. Well, absolutely. And I just think the comment 
about your children, our children--we talk about costs of gun 
violence today. Our children are going through these Code Red 
drills. There is a trauma that they are experiencing without 
having any school shootings, just going through the 
preparations and the anxiety and the fear that I think may not 
be quantifiable, but I think cannot be forgotten.
    You have got to a very important point because it is 
absolutely correct that gun violence is not evenly distributed. 
Mr. Schweikert earlier today was talking about the fact that 
some communities have made great strides in reducing gun 
violence. Others remain beset upon by unacceptable levels of 
gun violence.
    And of course there are fundamental socioeconomic forces 
that have driven some of this. And these problems are thorny, 
and the solutions are not simple. But what we do know is when 
we have the data, when we research the program, when we commit 
the resources, even those hard-hit communities that continue to 
bear the brunt of the gun violence problem, we can bring rates 
of gun violence down.
    I talked previously about Oakland, California, which 
reduced its gun shooting rate by 50 percent--the same 
interventions, the same strategies in Connecticut, in the three 
biggest cities in Connecticut with the three worst gun violence 
problems. The same results in aggregate is about a 50 percent 
reduction in those cities.
    So we have seen investments. Some State legislatures have 
begun dedicating targeted funds to these programs. What we need 
is for Congress to step up and dedicate funds to fund these 
programs, these lifesaving programs that have been shown time 
and again to bring some of the hardest-hit communities up to 
levels where their gun violence rates are more consistent with 
some of the more fortunate communities in the country.
    Senator Heinrich. Thank you.
    Dr. Lott, at one point the Crime Prevention Research Center 
website printed that your research had been published in 
Economic Journal Watch. Now, that is a peer-reviewed journal. 
The editor came out and said, no, that is not the case. Why the 
discrepancy? How did that happen?
    Dr. Lott. Well, it was originally accepted. And then he 
decided he wanted to make changes in it, and we could not agree 
on the changes. And so then it did not get published. But it 
was originally accepted, and I have email and correspondence to 
go and show that was the case.
    Senator Heinrich. Published is a past tense for--would it 
not be wise to wait until something to actually publish the 
statement?
    Dr. Lott. Well, I think it was listed as ``forthcoming.''
    Senator Heinrich. Okay. Dr. Lott, who was Mary Rosh?
    Dr. Lott. Well, it was basically the family email account 
that we had, basically based on the names of my four sons at 
that time. It was an account that the family used.
    Senator Heinrich. Madam Chair, I would ask unanimous 
consent to enter an article into the record from the Washington 
Post called, ``Scholar Invents Fan to Answer his Critic.''
    [The Washington Post article referred to appears in the 
Submissions for the Record on page 82.]
    Senator Heinrich. And I will just read one quick quote from 
this article. Now, this is under the name Mary Rosh, but it is 
speaking to various online publications, and was, I believe, 
authored by Dr. Lott.
    ``I had him for a Ph.D.-level empirical methods class when 
he taught at the Wharton School at the University of 
Pennsylvania back in the early 1990s, well before he gained 
national attention, and I have to say he was the best professor 
I ever had.''
    Does it show good judgment for a researcher to comment that 
way with regard to your own research under a name that is 
clearly not transparent----
    Dr. Lott. Well, first of all, I did not write that.
    Senator Heinrich [continuing]. And fraudulent? But----
    Dr. Lott. First of all, I did not write that. It was a 
family account. And there was somebody else in my family who 
was responding to attacks that were on me. Okay? So I do not 
police everybody in my family when they go and do things like 
that. And I had members of my family who wrote a couple reviews 
on my books and other things like that. I am not going to go 
and tell----
    Senator Heinrich. You are quoted in this article as saying, 
``I probably should not have done it.''
    Vice Chair Maloney. The gentleman's time has expired.
    Dr. Lott. Well, there are two different issues here. Did I 
use that account myself sometimes? And I did, mainly because 
when I had originally participated in these internet chat 
rooms----
    Vice Chair Maloney. The gentleman's time has expired.
    Dr. Lott. Can I please respond to this?
    Vice Chair Maloney. We are following regular order. The 
Chairman--excuse me.
    Dr. Lott. Look. When I have been attacked on other 
committees, I have been allowed to respond.
    Vice Chair Maloney. The Chairman--the Chairman and I have 
agreed that at the end of the hearing, we will each have five 
minutes to allocate. He will allocate five minutes for you to 
respond to various attacks or various things that you want to 
say.
    Dr. Lott. Just two sentences.
    Vice Chair Maloney. At the end of the hearing.
    Dr. Lott. All right.
    Vice Chair Maloney. I am following--people have schedules.
    Dr. Lott. All right. Thank you.
    Vice Chair Maloney. They have other places they have to go.
    Dr. Lott. All right. Thank you.
    Vice Chair Maloney. Representative Trone, you are 
recognized for five minutes. And then I will recognize Chairman 
Lee and he can give his five minutes to you.
    Representative Trone. Thank you, Chairman.
    First of all, I want to thank the witnesses here today, 
especially Dr. Hupp and Ms. Meins for the tragedy and 
difficulty you have been subjected to. It is just heart-
wrenching to see what has happened. It is unbelievable.
    I also want to thank the Moms Demand Action, and for 
willingness to stand up and just be relentless and be focused 
and just never quit. And you saw the same thing from the 
Parkland students were here a few months ago. I met with them. 
And when you think about it, the adults in the room, we failed. 
We failed and failed and failed and failed. And it is just the 
failure has never, never ended. It is continuing.
    And I am not a politician. I come out of a business 
background. This is my first term here. And it is just 
absolutely mind-boggling that something that 90 percent of the 
American people--so many things we all agree on, and I am not 
against having a Second Amendment. I grew up on a farm, and I 
hunted the pheasants and rabbits all my life. I taught my son 
how to hunt pheasants. And we understand about gun safety and 
being thoughtful and understanding that.
    But the carnage that we have allowed to happen throughout 
America--and now it is raining on our children, our most 
important asset--is just unconsolably disappointing that we 
cannot come together in a bipartisan fashion and get a couple 
damn things done.
    I think the one that really bothers me the most is the 
suicides. I mean, 33,000 people die, roughly, of suicide by 
gun. I read a stat the other day, and it said that when they 
were able to stop that person from making that final fatal 
decision, and intervene, and go back and subject that person to 
their friends, their family, their therapists, et cetera, 90-
plus percent of those never, ever attempted that again.
    But the fact that that gun was there and available at that 
moment, in a moment of supreme despair and anxiety--and yes, we 
are facing a mental health crisis here, we absolutely agree--
but if that weapon was not there, those folks, the vast 
majority, would still be here with us. A lot of those, of 
course, are children.
    So we have passed two bills this year. Everybody up on this 
side I know has been sponsors, H.R. 8 and the Charleston 
loophole. And we have got to figure out a way to get this 
before the Senate. And it is just supremely, though, 
disappointing.
    Let's talk a second about the money in that, we passed $50 
million for research. Mr. Skaggs, to look at firearm morbidity, 
mortality prevention, if the Senate did that, what kind of 
prevention impacts do you see this investment in research would 
do? And how can this Federally funded money inform us as 
policy-makers to stop failing?
    Mr. Skaggs. Well, I think it is--in a couple of ways. First 
of all, it is going to allow for comprehensive data to be 
collected. The CDC has something called National Violent Death 
Reporting System. It has only been funded so it could collect 
data on a small percentage of the States.
    When we have mechanisms in place to get comprehensive data 
that can allow folks in your position to craft a successful and 
well-tailored policy solution, we should have uniform data 
across the whole country. So first of all, it is collecting the 
data.
    Secondly, it is analyzing the patterns of gun violence. It 
is analyzing the patterns of gun trafficking. How do guns move 
from States with very lax laws that allow them to be bought by 
straw purchasers and trafficked to States with stricter laws, 
stronger laws? We need to understand gun trafficking better.
    So there are a whole host of questions that researchers at 
NIH and CDC can undertake that can give the tools that policy-
makers need to craft evidence-based solutions. This crisis is 
such that we should be trying more than one solution. We should 
not stop with just one policy and hope that it will solve 
everything because it will not.
    But what we need to do is experiment based on informed 
analysis of what works, what does not, and what the nature of 
the problem really is. And that is going to allow us to make 
more progress.
    Representative Trone. It has got to get off the dime and do 
something. And if some things do not work, so be it. We move 
on. We fail fast and we go. But I am totally with you, and 
thank you for your testimony.
    Mr. Skaggs. Thank you.
    Vice Chair Maloney. The gentleman's time is expired.
    The Chairman of the Committee, Mr. Lee, is recognized for 
five minutes.
    Chairman Lee. Thank you, Madam Vice Chair.
    Dr. Lott, I would like to invite you to respond to some of 
the points made particularly with regard to the false positives 
on background checks and anything else mentioned during that 
exchange.
    Dr. Lott. Sure. Well, there is a series of things. So I 
would just say if you look around the world, not just in the 
United States and places like Chicago and Washington, D.C., 
that have banned guns, every single time, murder rates have 
gone up, and they have gone up by a lot. You would think out of 
randomness one time, when either all guns have been banned or 
all handguns have been banned, you would see the murder rates 
fall or even stay the same. But every time, it has gone up.
    With regard to the background checks, what was being 
referred to was a small sample of about 400 cases out of the 
76,000 that were sampled. And of that 400 non-random sample--
you would think if you are going to test something, at least 
you are going to have a random sample. But they did not even 
use a random sample, and it was after a couple stages of review 
that had already removed a lot of the false positives there. So 
the report that was put out by the Obama administration I think 
was pretty much useless on that.
    If you go through and look at the last annual report that 
was put out on NICS in 2010, there were 76,000 initial denials. 
The first stage of review, which is done by the Bureau of 
Alcohol, Tobacco, and Firearms, the national office, no 
discretion. Basically just checking to make sure paperwork and 
everything is okay. No lawyers looking at it. Ninety-four 
percent of the cases were dropped at that stage.
    When Congress in 2004 did a 10-year review of the Brady 
Act, they did an audit of the second stage of review, which is 
done by the BATF field offices. At that point, another two 
percentage points of the cases--again, no discretion. So just 
the first two stages of review, you have 96 percent of the 
cases there with no discretion.
    You can talk to people who actually run these things. 
Reagan Dunn, who is the first director of Project Safe 
Neighborhoods, he was in charge of enforcing these things. He 
tells you, and he has been quoted in the New York Times and 
other places, saying that they would have loved to go after 
these cases. The reason why in 2010 you have 76,000 denials and 
only 28 prosecutions and 13 convictions is because the others 
are not real cases.
    Unfortunately, it is primarily minorities that are 
overwhelmingly hurt. When you look at things like roughly 
phonetically similar names and similar birthdays, people tend 
to have names similar to others in their racial groups. 
Hispanics have names similar to other Hispanics. Blacks have 
names similar to other blacks.
    Thirty percent of black males in the United States are 
legally prohibited from owning guns because of past criminal 
history. It discriminates overwhelmingly against minorities. 
They are the ones who are hurt by these mistakes.
    And with regard to the concealed carry statistics, I will 
just mention, there are dozens of studies. One is pointed to in 
this case. But there are other studies that have used synthetic 
controls, the same data, the same types of specifications, and 
showing that tiny changes, they actually get the opposite 
results of what was claimed. And those were published in peer-
reviewed journals even before the one that was referenced 
earlier.
    Chairman Lee. In constructing the non-random sample 
selection mechanism, why would one do that? When you are trying 
to research data, isn't the random sample selection mechanism--
--
    Dr. Lott. It is sort of--you have to do it.
    Chairman Lee [continuing]. The meat and potatoes of that?
    Dr. Lott. You have to do random.
    Chairman Lee. Why would one choose not to do that?
    Dr. Lott. I don't know. And I have asked the FBI multiple 
times. I have contacted people there, and they will not provide 
an answer for why they picked a non-random sample.
    Chairman Lee. In the minute I have got left, I would like 
to hear, either Dr. Lott or Dr. Hupp, it was mentioned earlier 
what States might be able to do. I think it is important for 
States to be able to act. States are, in fact, designed to be 
the laboratories of republican democracy within our system. Is 
there anything in your State, your respective States, that you 
wish you would see passed into law?
    Dr. Lott. Well, I will just mention one thing that has come 
up a couple times, and that is school shootings. At the Crime 
Prevention Resource Center, we just finished a report recently 
where we looked at all school shootings from accidents through 
2018. And there is not one attack, one shooting of any type 
where anybody has been injured or killed, in any of the schools 
that allow teachers to carry.
    You have 20 States that, to varying degrees, including Utah 
and Hassan's New Hampshire, where basically any teacher who has 
a concealed carry permit is able to go and carry. You have 
other States, Texas, you have over a third of the school 
districts by last fall allowed people to carry. Not one attack 
at any of these places where anybody, one person, has been 
injured by a shot or killed.
    And it should tell you something there. The types of fears 
that people have about people--students getting hold of guns or 
a teacher accidentally shooting somebody, or they're shooting a 
bystander, people shooting bystanders at mass public shootings, 
simply do not occur.
    It is easy for people in these debates to talk about things 
that might possibly happen. But in this case, with 20 States 
actually experimenting with this, and Utah has had it for 20 
years, we do not need to go and guess about what the experience 
is in these places.
    Vice Chair Maloney. The gentleman's time has expired.
    I recognize myself for five minutes, and first would like 
to thank the Chairman and all of my colleagues for being here 
and working on this issue; and the panelists, all of you for 
participating, particularly Shenee Johnson and Ms. Meins and 
Dr. Hupp, who shared very personal, painful stories with us, 
and their actions to work for a safer America.
    I want to thank the moms for being here today, and really 
being at meetings all around the country, speaking out for 
bipartisan solutions and for ending this.
    I would like to ask unanimous consent--I will grant it to 
myself--to put in the record a chart prepared by the Joint 
Economic Committee which tells you everything you need to know 
about gun violence in our country compared to other countries. 
And again the red line in this chart is America.
    And next to it is Canada, and people are eight times less 
likely to be killed by a gun if you live in Canada or France. 
Japan has zero deaths from guns, absolute zero. Iceland, zero. 
And the United Kingdom, we are 40 times more likely to be 
killed by a gun in the United States than in the United 
Kingdom.
    The stats speak for themselves. And when you see numbers 
like that, we stand alone. We stand alone in mass murders. We 
stand alone in the number of deaths.
    [The chart titled ``Rates of Violent Death by Firearm'' 
appears in the Submissions for the Record on page 41.]
    I would like to address my question to Mr. Skaggs and Ms. 
Meins. If you have good data, you have good policy, and both of 
you have indicated our data is not good. For years we were 
prevented from studying gun violence. What can we do--what are 
the steps we have to take--steps that are very clear from the 
data?
    One of the problems is that you are hearing different data 
mentioned, and we need to have a uniform standard. Could you 
address that? And I just want to say that this issue should be 
bipartisan. We should all be working together to have some 
solutions to make this country safer.
    Mr. Skaggs and Ms. Meins.
    Mr. Skaggs. Well, first, look. I think we have heard a lot 
about peer-reviewed journals and so forth. I think we need to 
look at the highest quality research that we can, and I think 
we need to look to peer-reviewed journals. We need to look to 
studies that meet the highest levels of credibility. That is 
the first thing.
    I think we are at a moment where we have seen the action in 
the House. We have seen progress. We have seen political 
progress that we have not seen in years. And I think this is a 
moment where the country is crying out and demanding that folks 
here in Congress do something.
    We have got policies with 80 percent, 90 percent of public 
support. They have either made it through the House already or 
they are on the way to the House floor. We need to bring that 
pressure on the Senate. I think I will stop there.
    Vice Chair Maloney. Ms. Meins.
    Ms. Meins. I would echo everything that Mr. Skaggs just 
said. And I would also say that in January of 2016, my family 
wrote an article advocating for providing more funding to the 
CDC to do research.
    And I think that is critical, as well as, again like Mr. 
Skaggs said, really relying on peer-reviewed journals that have 
a lot of academic integrity, trying to come up with the best 
solutions. It is going to be a comprehensive set of laws that 
we need to put in place in order to really hit home and be 
where we want to be on this issue. But I think it is really 
important to make those first steps.
    Vice Chair Maloney. Okay. Without objection, I would love 
to put your family's article into the record.
    [The January 2016 Meins family article titled ``Honoring 
San Bernardino victims means tackling gun violence'' appears in 
the Submissions for the Record on page 45.]
    Again I thank everyone who participated in this hearing. 
The meeting is adjourned. Thank you.
    [Whereupon, at 3:58 p.m., the Committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD

   Prepared Statement of Hon. Carolyn B. Maloney, Vice Chair, Joint 
                           Economic Committee
    Thank you all for being here today.
    And I'd especially like to thank our witnesses, some of whom have 
lost family members to gun violence. And as we talk about the costs of 
gun violence, let us never forget that the biggest, most tragic cost is 
the loss of human life.
    I believe that Congress must act to help stem the gun violence 
epidemic in our country.
    In 2017 alone, almost 40,000 people were killed by guns in this 
country. Firearms are now the leading cause of death in young adults. 
Our gun homicide rate for teens and young adults is nearly 50 times 
higher than other high-income countries. And 90 percent of all the 
women killed by firearms in high-income countries are killed in the 
United States.
    In August alone, more than 50 lives were taken in a series of 
horrible massacres. So far this year, there have been 301 mass 
shootings--that's more than one per day.
    And yet--unbelievably--some people say that the real problem here 
is that we don't have enough guns.
    They say that the only thing that will make America safer is more 
guns. But the fact is that if more guns made us safer we already would 
be the safest country in the world.
    In the United States, there are more guns in civilian hands than 
any other country in the world. An American is nearly seven times more 
likely than someone in Canada to die by a gun, eight times more likely 
than someone in France, almost 20 times more likely than a person in 
Germany and almost 40 times more likely than someone in the UK, 
Australia or New Zealand, and nearly 200 times more than someone in 
Japan.
    More people in the United States died from firearm-related injuries 
from 2003 to 2012 than the entire number of combat fatalities in World 
War II.
    There is no way to estimate ``cost of a human'' life. The loss is 
incalculable.
    But there is also economic cost--a lost breadwinner's income, 
astronomical medical costs, costs to employers, schools, police, 
hospitals and the criminal justice system.
    In order to help people better understand those costs, I've asked 
my staff to produce a report that compiles data on the economic costs 
of gun violence in all 50 States.
    The report finds that:

    <bullet>  Rural States have the highest costs of gun violence 
measured as a share of their economies.
    <bullet>  States with high rates of gun ownership have the highest 
rates of gun suicide.
    <bullet>  The three largest States suffer the largest absolute 
costs.
    <bullet>  High youth death rates from gun violence extend across 
region.

    In contrast, my State of New York, which has stricter gun laws, 
including an assault weapons ban, has one of the three lowest costs of 
gun violence as a share of its economy, along with Hawaii and 
Massachusetts.
    There are three people in this room today--who have suffered heart-
wrenching losses as a result of gun violence.
    One of our witnesses, Tina Meins, lost her father in the mass 
shooting in San Bernardino, California, in 2015. Dr. Suzanna Hupp, who 
also is testifying, lost both her parents in a mass shooting at a 
restaurant in Texas in 1991. And Shenee Johnson, seated in the first 
row, lost both a fiancee and her son to gun violence.
    We must fight to lower the risk that other families are forced to 
bear such suffering.
    Other countries have drastically reduced gun violence--because they 
found the courage to act.
    In Australia, in 1996, after a man with an assault rifle killed 35 
people--the parliament responded by banning automatic and semiautomatic 
weapons and created a buyback program that resulted in 650,000 weapons 
being turned in. That's political courage.
    In New Zealand, in 2019, after 51 people were killed at the 
Christchurch mosque--the parliament acted, voting nearly unanimously to 
outlaw automatic and semiautomatic weapons. That's guts . . . the kind 
that the U.S. Congress has lacked for many years.
    In fact, in 1996, Congress made things worse.
    It passed legislation that effectively blocked all Federal funding 
for gun violence research at the Centers for Disease Control and 
Prevention.
    That is why we have gone more than 20 years without substantially 
deepening our knowledge about gun violence prevention and about what we 
can do to end this epidemic.
    This year the Democratic House acted to address this crisis.
    We passed the first gun safety reforms in 25 years.
    The bill requires universal background checks, closes the gun show 
loophole, and gives the FBI more time to conduct life-saving background 
checks.
    This summer, the House passed another bill, one that I have spent 
years fighting for, to invest $50 million to conduct research on how to 
reduce gun violence.
    And last week, the House Judiciary Committee sent to the full House 
a ban on high-capacity magazines, ``red flag'' legislation, and a bill 
to prohibit those who commit misdemeanor hate crimes from obtaining a 
gun.
    These are common sense measures that the vast majority of Americans 
strongly support.
    It's time for change.
    I look forward to a day when our children don't have to be afraid 
to go to school. When our teachers don't learn how to treat gunshot 
wounds. When nearly half of Americans aren't worried about being a 
victim in a mass shooting. And when those who hold the reins of power 
move beyond hollow offers of ``thoughts and prayers.''
    Let us honor the victims of gun violence and their families by 
working to prevent more victims. Let us--like other countries in the 
developed world--turn tragedy into bold action.
    And may all Members of Congress, especially those in the Senate, 
find the courage to act.
    I look forward to our witnesses' testimony this afternoon.
                               __________
Prepared Statement of Hon. Mike Lee, Chairman, Joint Economic Committee
    Good afternoon, and thank you for joining us for this hearing of 
the Joint Economic Committee.
    Over the past several weeks, Americans have watched in horror, 
again and again, as our fellow human beings--young and old--have been 
murdered in high-profile mass shootings on our soil. As lawmakers, it 
is not enough for us to grieve these losses.
    It is our responsibility, first, to understand what is causing 
these horrific events, as well as the many other tragic deaths by gun 
violence that take place in our country every year. And then, it is our 
responsibility to find any policies that may help prevent tragedies 
like these in the future--so long as these policies are faithful to our 
Constitution, and do not inadvertently harm the very citizens we are 
trying to protect.
    Mass shootings attract our attention because they have such power 
to inspire fear. When innocent people are gunned down at random and in 
public, we wonder whether we could be next. And our media, obsessed 
with their click count and viewership, too often choose to fan these 
fears rather than portray the truth about the terrible problem of gun 
violence in this country. Studies have suggested that this 
irresponsible media coverage may actually increase the number of mass 
shootings by encouraging potential killers in their sick desire for 
attention.
    The reality of gun violence in America is less sensational than 
what we see in the media, but no less horrible. Six in ten gun deaths 
are suicides. In 2017, for every victim of a mass shooting, there were 
88 victims of gun suicide and another 52 victims of other forms of gun 
homicide. Mental illness, spiritual emptiness, and a breakdown in 
family and community life are the underlying causes of much of our gun 
violence epidemic--including even mass shootings.
    Mass shooters seek to inflict on others the pain, fear, and inner 
torment that they are already suffering themselves. They often come 
from broken homes and distressed neighborhoods. The JEC's Social 
Capital Project has ranked American counties by the health of their 
family and community life, and has found that half of identified mass 
shooters come from the bottom quarter of counties. The evil committed 
by these murderers must be stopped, but we must also seek to uproot its 
causes.
    Millions of law-abiding citizens use guns to protect themselves, 
their families, and their communities, just as our founders intended. 
The Constitution protects our right to bear arms because if that right 
were abridged, we would become more dependent for security on our 
police and our military. And it is no criticism of our police and 
military to say that this would ultimately leave us less secure, not 
more. Some Americans have suffered tragedy precisely when they were 
prevented from exercising their right to bear arms, as we will soon 
hear from the personal story of Dr. Suzanna Hupp. And when we do enact 
gun-control laws, we know that criminals are all too happy to ignore 
them. One study found that 79% of guns recovered from crime scenes were 
possessed unlawfully.
    This does not mean that we have no ways to keep guns out of the 
hands of criminals and, especially, the mentally ill. Our State 
governments have proposed several worthwhile innovations, including 
those that make it easier for local law enforcement to act swiftly on 
reports of the suspicious activities that can precede a mass shooting. 
There is room for reform in our Federal statutes as well: for example, 
we could improve local agencies' reporting to our National Instant 
Criminal Background Check System for firearms purchases.
    Many Americans, including some of our witnesses, have borne in 
their own lives the unspeakable costs of gun violence. It is important 
for Congress to listen to their voices. I hope that this committee can 
present to the rest of our country a model for respectful conversation 
about some very difficult topics, so that we can work together to 
reduce the number of lives lost to gun violence.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Response from Mr. Skaggs to Questions for the Record Submitted by 
                           Senator Klobuchar
    1) I am concerned about a dangerous loophole in our background 
check system that allows domestic abusers to buy a gun simply because 
they are not married to, or do not have children with, their victims. 
When a gun is present in situations of domestic abuse, a woman is five 
times more likely to be killed, and according to the Justice 
Department, nearly half of women killed by romantic partners are killed 
by dating partners. That is why I introduced the Protecting Domestic 
Violence and Stalking Victims Act, to close this so-called ``boyfriend 
loophole'' and to prevent convicted stalkers from buying or owning a 
gun.

    <bullet>  How have State laws that prevent domestic abusers and 
convicted stalkers from buying or owning guns been effective in 
reducing gun violence?

    Guns and domestic violence are a deadly mix. The gun homicide rate 
for women in the United States is 21 times higher than it is in other 
high-income countries,\1\ a disparity that is fueled in large part by 
elevated rates of intimate partner homicide in America.
---------------------------------------------------------------------------
    \1\ Erin Grinshteyn and David Hemenway, ``Violent death rates in 
the US compared to those of the other high-income countries, 2015,'' 
Preventive Medicine 123, (2019): 20-26.
---------------------------------------------------------------------------
    Despite these risks, Federal law does not prohibit gun possession 
by people convicted of non-felony stalking crimes, and Federal law does 
not prohibit gun possession by abusers convicted of misdemeanor 
domestic violence if they are not married to, and do not have children 
with, their victims. But States across the country have taken steps to 
address the boyfriend and stalker loopholes in Federal law: about half 
the States have laws that prohibit dating partners subject to 
protective orders or convicted of domestic violence misdemeanors from 
possessing firearms, and nine States have similar laws for those 
convicted of stalking.
    A robust body of research shows that these laws are associated with 
significant reductions in intimate partner homicides. For example, 
State laws that restrict firearm access in domestic violence cases when 
a restraining order has been issued are linked to a 13% reduction in 
intimate partner homicides committed with firearms.\2\ Ensuring that 
abusers are actually relinquishing their firearms is also critical: 
reductions in intimate partner homicides are even larger when State 
laws require that abusers provide proof that they have turned over 
their guns.\3\
---------------------------------------------------------------------------
    \2\ April M. Zeoli, et al., ``Analysis of the Strength of Legal 
Firearms Restrictions for Perpetrators of Domestic Violence and Their 
Association with Intimate Partner Homicide,'' American Journal of 
Epidemiology 187, no. 11 (2018).
    \3\ Id.
---------------------------------------------------------------------------
    The Protecting Domestic Violence and Stalking Victims Act would 
close critical loopholes in our Federal gun laws. These provisions were 
also included in the Violence Against Women Reauthorization Act of 2019 
that passed the House. The Senate should similarly move to close these 
dangerous loopholes in Federal law.
    2) Your research has found that the levels of gun violence, and the 
associated costs, are lower in the 19 States that have adopted 
universal background checks.


    <bullet>  What are the economic benefits that you would expect to 
see if legislation to require universal background checks became law?
    Universal background checks are a foundational policy for reducing 
gun violence and the associated economic costs to our country. So long 
as prohibited persons are able to bypass the NICS background check 
system and get their hands on firearms through unlicensed sales with no 
questions asked, we will continue to see unacceptable levels of gun 
violence in our communities.
    There is no single policy that will end gun violence in America, 
but universal background checks represent the single most important 
step Congress could currently take to address this epidemic. Reducing 
the number of Americans being shot will lead to significant economic 
benefits. It will mean lower costs for medical care and mental health 
treatments. It will mean fewer survivors living with reduced wages and 
quality of life. And it will mean less costs associated with law 
enforcement and the criminal justice system. For example, if the 
Federal universal background check system prevented just 100 gun 
deaths, our calculations find that the country would see more than an 
estimated $538 million in cost savings.
    Polling consistently finds that over 90% of Americans support 
universal background checks. The House of Representatives passed H.R. 
8, the Bipartisan Background Checks Act, more than 200 days ago by a 
margin of 50 votes. The Senate should move it immediately to President 
Trump's desk for his signature.
  

                                  <all>
</pre></body></html>
